OFFICE OF THE ATTORNEY GENERAL

MARK BRNOVICH
ATTORNEY GENERAL

STATE OF ARIZONA

November 13, 2020

By Electronic Filing and Electronic Mail

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Brnovich v. DNC and Ariz. Republican Party v. DNC, Nos. 19-1257 & 19-1258

Dear Mr. Harris:
I am Counsel of Record for Petitioners in case No. 19-1257, which the Supreme Court
consolidated with case No. 19-1258 on October 2, 2020. On behalf of all parties in these
consolidated cases, I am writing to request an extension of time for the merits briefs and joint
appendix as follows:
Petitioners' briefs (and joint appendix): November 30, 2020
Respondents' briefs: January 13, 2021
Reply brief: February 12, 2021
All parties have consented to this proposed schedule.

cc: All counsel of record

2005

NORTH CENTRAL AVENUE, PHOENIX,

AZ 85004-1592 •

PHONE

602.542.5025 •

FAX

602.542.8308 •

WWW.AZAG.GOV

